WAIVER

Supreme Court of the United States

No. 20-98
Thomas Wood, Individually and as Personal v, The Boeing Co.
Representative of the Estate of Philip
Talmadge Wood
(Petitioner) (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
O Please enter my appearance as Counsel of Record for all respondents.

& There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

The Boeing Co.

 

x1 lama member of the Bar of the Supreme Court of the United States.

GO Iam not presently a member of the Bar of this Court. Should a response be requested,

 
 

Signature s

 

 

 

 

 

Date: August 27, 2020
(Type or print) Name. Eric B. Wolff
XO Mr, OMs. O Mrs. O Miss
Firm Perkins Coie LLP
Address 1201 Third Avenue, Suite 4900
City & State__ Seattle, Washington Zip 98101-3099
Phone __ (206) 359-8000 Email: EWolff@perkinscoie.com

 

SEND A COPY OF THIS FORM TO PETITIONER’S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Ce: Evan Andrew Young

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.
